McDonaldH

l

k.
op ins

I

McDonald Hopkins LLC
600 Superior Avenue, East
Suite 2100
Cleveland, OH 44114

A business advisory and advocacy law firm®
Direct Dial : 216.348.5809
E-mail : jrumstrong@mcdonaldhopkins.com

P 1.2 16.348 .5400

F 1.2 16.348 .5474

January 13, 2020

Scott S. Harris, Esq. , Chief Clerk
Supreme Court of the United States
1 First Street N.E.
Washington, D.C. 20543
Re:

GP! Distributors, Inc. v. Northeast Ohio Regional Sewer District
Docket No. 19-857

Dear Mr. Harris:
This firm represents the Respondent in the above matter.
Pursuant to Rules 15.3 and 30.4 and on behalf of our client, we request that the time to respond
to the Petition for Writ of Certiorari be extended 30 days, through and including March 11, 2020.
The Court docket reflects that the Brief in Opposition to the Writ of Certiorari must currently be
filed by February 10, 2020.
Due to certain scheduling conflicts and the press of other business commitments, counsel
respectfully requests additional time within which to prepare a response which properly
addresses all of the issues raised in the Petition.
As indicated by the enclosed certificate of service, we have concurrently served a copy of this
letter upon counsel for the Petitioner.
Thank you for your courtesy and prompt consideration of this request.
Very truly yours,

Jennifer Dowdell Armstrong

{8564269: }
Chicago

I

Cleveland

I

Columbus

I

Detroit

I

www.mcdonaldhopkins.com

Miami

I

West Palm Beach

,.

,.

CERTIFICATE OF SERVICE
I hereby certify that on January 13, 2020, a copy of the foregoing was filed with the
Court. Notice will be served upon the following via regular U.S. mail:

Deborah A. Coleman
Coleman Law LLC
16781 Chagrin Boulevard
Suite 289
Cleveland, OH 44120
Andrew S. Pollis
Case Western Reserve Law School
Milton A. Kramer Law Clinic
11075 East Boulevard
Cleveland, OH 44106

Jennifer Dowdell Armstrong (0081090)
Counsel of Record for Respondent
Northeast Ohio Regional Sewer District

(8564269: }

Chicago

I

Cleveland

I

Columbus

I

Detroit

mcdonaldhopkins.com

WestPalmBMe Donald

•

Hopkins

A business advisory and advocacy law firm"

